No. 20-881

In The

Oupreme Court of tbelliniteb Otatto
♦
HUONG L. TRAN and RICHARD W. HAZEN,
Petitioners,
V.
CITY OF HOLMES BEACH, FLORIDA;
CITY OFFICIALS in Official Capacity; FLORIDA
DEPARTMENT OF ENVIRONMENTAL PROTECTION;
DEPARTMENT OFFICIALS in Official Capacity,
Respondents.
♦

On Petition For Writ Of Certiorari
To The United States Court Of Appeals
For The Eleventh Circuit
♦

BRIEF IN OPPOSITION OF RESPONDENTS
FLORIDA DEPARTMENT OF ENVIRONMENTAL
PROTECTION AND ITS DEPARTMENT OFFICIALS
(CORRECTED)
♦

SAMUEL R. MANDELBAUM, ESQ.
MANDELBAUM FITZSIMMONS HEWITT & CAIN, P.A.
2111 W. Swann Avenue, Suite 200
Tampa, FL 33601-3373
Telephone: (813) 221-0200
(srm@manfitzlaw.com)
Counsel of Record for Respondents Florida Department
of Environmental Protection and its Department Officials

1

QUESTION PRESENTED
(as restated by Respondents)
Have the Petitioners presented sufficient "compelling reasons" to justify the granting of certiorari under
this Court's Rule 10, where the decision of the Eleventh Circuit in the case below does not conflict with
another Circuit's decision on the same important matter; it did not decide an important federal question conflicting with a decision of a state court of last resort;
the Eleventh Circuit did not depart from accepted and
usual course of judicial proceedings; where its decision
is not of a state court of last resort; and, the court did
not decide an important federal question in a way conflicting with other Supreme Court decisions?
Did the Eleventh Circuit act inappropriately when
affirming the dismissal with prejudice of Petitioners'
Third Amended Complaint for repeated assertions of
"shotgun pleadings," which contained multiple counts
that adopted allegations of preceding counts; where it
was full of conclusory, vague and immaterial facts; and
presented multiple claims against multiple defendants
without sufficiently specifying which defendant is responsible and whether each such defendant was acting
in an official capacity or individual capacity?
In any event, did the District Court or Eleventh
Circuit deprive Petitioners of due process in dismissing
their Second Amended Complaint with prejudice,
where they had been apprised by the District Court
beforehand of the complaint's deficiencies with suggestions on how to resolve them, and were given opportunities to correct the deficiencies?

11

LIST OF PARTIES
The Respondents, Florida Department of Environmental Protection ("FDEP"), is an agency of the State
of Florida. In their Third Amended Complaint, Petitioners have also sued FDEP's unnamed "Department
Officials" in "their official or individual capacity." However, James Martinello was listed by Petitioners in
their Third Amended Complaint as FDEP's environmental manager, was sued in his official capacity.

111

TABLE OF CONTENTS
Page
QUESTIONS PRESENTED (as restated by Respondents)
LIST OF PARTIES

ii

TABLE OF CONTENTS

iii

TABLE OF AUTHORITIES
JURISDICTION

1

STATEMENT OF THE CASE (as restated by Respondent)
1
Proliferation of State Court Actions
2
Petitioners' Federal Court Claims

7

Eleventh Circuit Appeal

11

Related State & Federal Actions Since 2011

13

REASONS FOR DENYING THE PETITION

14

PETITIONERS HAVE PRESENTED NO
COMPELLING REASONS FOR GRANTING
A PETITION FOR WRIT OF CERTIORARI,
AS THE ELEVENTH CIRCUIT'S SUBJECT
DECISION IS NOT IN DIRECT CONFLICT
WITH A DECISION OF ANOTHER CIRCUIT
COURT ON THE SAME IMPORTANT MATTER; THE DECISION DID NOT DECIDE AN
IMPORTANT FEDERAL QUESTION CONFLICTING WITH A STATE COURT OF LAST
RESORT; NOR DID IT DEPART FROM THE
ACCEPTED AND USUAL COURSE OF JUDICIAL PROCEEDINGS
14

iv
TABLE OF CONTENTS — Continued
Page
Shotgun Pleadings have been Disfavored
and Dismissed by the Federal Courts for
Many Years
15
Dismissal with Prejudice is the Accepted
and Usual Course of Proceedings when
Pro Se Plaintiffs are Given Notice of
Pleading Defects and an Opportunity to
Correct Them, but Repeatedly Fail to Do
So
22
CONCLUSION

24

V

TABLE OF AUTHORITIES
Page
CASES
Alexander v. Global Tel, 816 Fed.Appx. 939 (5th
Cir., 2020)
19, 20
Anderson v. District Board of Trustees, 77 F.3d
364 (11th Cir. 1996)

16

Atuahene v. City of Hartford, 10 F. Appx. 33 (2d
Cir. 2001)

17

Bazrowx v. Scott, 136 F.3d 1053 (5th Cir. 1998)

23

Casavelli v. Johanson, 2020 WL 7643170 (D.
Ariz. Dec. 23, 2020)

16

Cincinnati Life v. Beyrer, 722 F.3d 939 (7th Cir.,
2013)

20

City of Holmes Beach v. Hazen, et al, Twelfth Judicial Circuit Court Case No. 2018-CA-784

6

City of Holmes Beach v. Petitioners Committee
et al. Twelfth Judicial Circuit Court Case
No. 2013-CA-5990

5

D.J. Young Publishing Co., LLC v. Unified Gov't
of Wyandotte County, 2012 WL 4211669 (D.
Kansas, September 18, 2012)

19

Davis v. Coca-Cola Bottling Co. Consol., 516
F.3d 955 (11th Cir. 2008)

15

Destfino v. Reiswig, 630 F.3d 952 (9th Cir., 2011).... 21, 23
Ducksworth v. Rook, 647 Fed.Appx. 383 (5th Cir.,
2016)

20

Glenn v. First Nat'l Bank in Grand Junction,
868 F.2d 368 (10th Cir. 1989)

18

vi
TABLE OF AUTHORITIES — Continued
Page
Hart v. Salois, 605 Fed.Appx. 694 (10th Cir,
2015)

18

Hazen, et al v. City of Holmes Beach, Case No.
2013-AP-000297

3

Hazen, et al v. City of Holmes Beach, Florida
Second DCA Case No. 2D14-4833

3

Hazen, et al. v. City of Holmes Beach, et al., Case
No. 2013-CA-4098

4

Hazen et al v. City of Holmes Beach and Florida
Department of Environmental Protection et
al, Twelfth Judicial Circuit Court Case No.
2018-CA-5800

6, 7

Hazen et al v. City of Holmes Beach et al, Middle
District of Florida Case No. 8:19-cv-00534

7, 8

Hynson v. City of Chester Legal Dep't, 864 F.2d
1026 (3d Cir. 1988)

18

Kelly v. Huzella, 71 F.3d 878 (5th Cir., 1995)

20

Kuehl v. F.D.I.C., 8 F.3d 905 (1st Cir.1993)

23

Lee v. Ohio Educational Association, 951 F.3d
386 (6th Cir, 2020)

20

McLean Contracting Co. v. Waterman S.S. Corp.,
277 F.3d 477 (4th Cir. 2002)

19

McNamara v. Brauchler, 570 F. App'x 741 (10th
Cir. 2014)

19

Nurse v. Sheraton Atlanta Hotel, 618 Fed. Appx.
987 (11th Cir. 2015)
15, 17

vii
TABLE OF AUTHORITIES — Continued
Page
Opdycke v. Stout, 233 Fed.Appx. 125 (3d Cir.,
2007)

18

Petitioners Committee et al., v. City of Holmes
Beach, 225 So.3d 853 (Fla. 2d DCA 2017)

5

Petitioners Committee et al., v. City of Holmes
Beach, 138 S.Ct. 658 (2018)

6

Pola v. Utah, 458 F. App'x. 760 (10th Cir. 2012)

19

Schachter v. Sunrise Senior Living Mgmt., Inc.,
2020 WL 1274601 (D. Conn. Mar. 16, 2020)

17

Sollberger v. Wachovia Securities, LLC, 2010 WL
2674456 (WD. Ca. June 30, 2010)

16

Tran v. City of Holmes Beach et al, 817 Fed.
Appx. 911 (11th Cir. 2020)
1, 11, 12, 23
Vibe Micro v. Shabanets, 878 F. 3d 1291 (11th
Cir. 2018)
15, 22
Wagner v. First Horizon Pharmaceutical Corp.,
464 F.3d 1273 (11th Cir. 2006)

17

Weiland v. Palm Beach County Sheriff's Office,
792 F.3d 1313 (11th Cir. 2015)
8, 11
Wilson v. 5 Choices, 776 Fed.Appx. 320 (6th Cir,
2019)

20

Wright v. City of Phila., 2005 WL 3091883 (E.D.
Pa. Nov. 17, 2005)

18

Ziemba v. Incipio Techs., Inc., 2014 WL 4637006
(D. N.J. Sept. 16, 2014)

16

vi"
TABLE OF AUTHORITIES — Continued
Page
CONSTITUTIONAL PROVISIONS
Fla. Const., Art. III, Sec. 6

4

STATUTES
Fla. Stat. Chap. 161

3

Fla. Stat., Section 161.053

4

Fla. Stat., Section 161.141

4

Fla. Stat., Section 163.3167(8)(a)

5

Fla. Stat., Section 166.041

4

Fla. Stat., Section 553.83

6

28 U.S.C. 1254(1)

1

28 U.S.C. §2403(b)

1

42 U.S.C. § 1983

7, 9, 20

42 U.S.C. § 1985

7

42 U.S.C. § 1986

7

RULES
Sup. Ct. R. 8
Sup. Ct. R. 10

12, 18
1, 12, 14, 24

Sup. Ct. R. 10(a)

14

Sup. Ct. R. 10(b)

20

1
JURISDICTION
Petitioners timely filed their Petition for Writ of
Certiorari on December 22, 2020. This Court's discretionary jurisdiction exists under 28 U.S.C. 1254(1) for
consideration of this case for review. Notwithstanding,
Petitioners have not arguably met the strict standards
and criteria of this Court's Rule 10 nor demonstrated
"compelling reasons" for this Court's exercise of this
Court's jurisdiction. In any event, the FDEP Respondents deny that 28 U.S.C. §2403(b) would apply here as
the State of Florida has not intervened in this case.
♦

STATEMENT OF THE CASE
(as restated by Respondent)
As pointed out by the Eleventh Circuit below in
Tran v. City of Holmes Beach et al, 817 Fed. Appx. 911,
912 (11th Cir., 2020), this case concerns "a treehouse
the [Petitioners] built without a permit on their beachfront property." In 2011, the Code Enforcement Board
of the City of Holmes Beach, Florida cited Petitioners
and found them in violation for constructing their
multi-story assembly structure on the City's coastal
property without the necessary permits and "for failing
to obtain a building permit prior to construction within
the erosion control line setback."
Since then a decade of litigation has followed in
Florida administrative proceedings and multiple state
trial court and multiple state appellate court actions.
More recently, Petitioners filed actions in the federal

2
district and circuit courts, as well as a previous petition for certiorari brought in 2017 to this Court.'
Petitioners' treehouse is an untypical structure.
It's elevated about 10 feet above ground and partially
relies on large Australian pine tree for support. Pilings
driven into the ground also support the treehouse
structure which are located within the setback from
the erosion control line established by the State of
Florida. In their petition, the Petitioners claim they
had previously received verbal assurance from the City
of Holmes Beach that the tree house "did not require"
a permit; however, the City steadfastly denies their assertion. All of their contentions made in the multiple
legal proceedings since 2011 focus on efforts to preserve the unauthorized structure and the City's efforts
to enforce its codes relative to it.
Proliferation of State Court Actions
After conclusion of the initial 2011 Code Enforcement proceeding and quasi-judicial hearing, Petitioners were found in violation of numerous sections of the
City's land development and building codes (case no.
CE 11-12-225). In its final order, the City's Code Enforcement Board required Petitioners to obtain the
necessary approvals or to remove the tree house.
1 In 2017, Petitioners filed their earlier petition for certiorari
to this Court, essentially raising similar constitutional challenges
for violation of the Florida Constitution. U.S. Supreme Court
docket no. 17-603. On January 8, 2018, this Court denied certiorari.

3
Through their counsel, Petitioners appealed the
order to the appellate division of Florida's Twelfth Judicial Circuit Court, Hazen, et al v. City of Holmes
Beach, Case No. 2013-AP-000297.2 The state court
affirmed the findings of the Code Enforcement Board
and rejected Petitioners' constitutional challenge to a
section of the City's Land Development Code, claiming
it to be "more restrictive" than Fla. Stat. Chap. 161 that
governs beach & shore preservation. The circuit court
further rejected as without merit Petitioner's equitable
estoppel argument, which asserted that they were informed by the City's Building Official that a permit
was "not required" for the tree house.
Thereafter, on October 16, 2014, Petitioners' counsel filed a petition for writ of certiorari (a discretionary writ) to Florida's Second District Court of Appeal
("Florida Second DCA"), further challenging the circuit
court's order affirming the code enforcement order.'
Hazen, et al v. City of Holmes Beach, Florida Second
DCA Case No. 2D14-4833. The following year, on
June 15, 2015, the Florida Second DCA rendered a
denial per curium of the writ. From the denial per
curium, Petitioners' counsel filed a motion for certification and written opinion. The motion was denied on
July 22, 2015. Petitioners then followed with a motion
2 Petitioners are and were represented by the law firm of
Icard Merrill Cullis Timm Furen & Ginsburg (Icard Merrill),
presently a mid-size law firm of 33 lawyers based in Sarasota,
Florida. See: https://icardmerrill.com/attorneys/
3 Again, Petitioners were represented in Florida's Second
DCA by Icard Merrill.

4
for rehearing filed on July 30, 2015, which was stricken
as unauthorized on October 28, 2015.
In the meantime, on June 24, 2013, Petitioners'
counsel filed an original action in Florida's Twelfth Judicial Circuit Court, Hazen, et al. v. City of Holmes
Beach, et al., Case No. 2013-CA-4098.4 An amended
complaint was filed on May 17, 2019 after the City's
motion for more definite statement was granted on
April 29, 2019. A second amended complaint was filed
on September 11, 2019, and the circuit court granted
the City's partial motion to dismiss count III of the Second Amended Complaint on November 15, 2019. The
third amended complaint filed on January 7, 2020 alleged: (1) that a City ordinance violated the single subject requirements of Art. III, Sec. 6, Fla. Const. and
Section 166.041, Fla. Stat., and was therefore void;
(2) that adoption of the same ordinance violated the
procedural due process clause of the Constitution of
the State of Florida and was therefore void; (3) that
part of the City's code was unconstitutional on its face
in violation of Petitioners' substantive due process
rights and was therefore void; and, (4) that part of the
City's code was unconstitutional on its face as being in
direct conflict with the provisions of Sections 161.141
and 161.053, Fla. Stat. The case remains pending before the Twelfth Judicial Circuit to date.
On September 23, 2013, while the code enforcement matter was proceeding, Petitioners' counsel,
4 That case is still pending at this time, with David Levin of
the law firm of Icard Merrill listed as counsel for Petitioners.

5
attempted to use the "citizen initiative" process contained in the City's charter to force a referendum of the
City's voters—seeking to compel the City to issue a development order authorizing the tree house. In City of
Holmes Beach v. Petitioners Committee et al., Twelfth
Judicial Circuit Court Case No. 2013-CA-5990, the
City filed a complaint seeking declaratory relief on
September 23, 2013, against the petitioners' committee, Petitioner Richard Hazen, and Petitioner Huong
Tran in her individual capacity and as the designated
representative of the petitioners' committee. On August 15, 2016, the state court permanently prohibited
Petitioners from submitting the proposed ordinance to
the voters under the initiative provisions of the City's
charter because Section 163.3167(8)(a), Fla. Stat., prohibits use of the initiative process regarding any development order.
Thereafter, on September 8, 2016, Petitioners appealed the state circuit court's order to Florida's Second DCA. However, the following year, on May 3, 2017,
the Second DCA issued its per curium affirmance of
the circuit court's order. See: Petitioners Committee et
al., v. City of Holmes Beach, 225 So.3d 853 (Fla. 2d DCA
2017). From there Petitioners filed a motion for rehearing en banc of the decision, which was denied by the
Florida Second DCA on July 17, 2017.
Three months after that, on October 23, 2017, Petitioners' counsel filed the Petitioners' first Petition for
Writ of Certiorari to this Court, docketed as Case No.
17-603, which raised federal due process and state constitutional claims. However, on January 8, 2018, after

6
the filing of a brief in opposition and a reply brief, this
Court denied certiorari. See: Petitioners Committee et
al., v. City of Holmes Beach, 138 S.Ct. 658 (2018).
On February 22, 2018, in City of Holmes Beach v.
Hazen, et al, Twelfth Judicial Circuit Court Case No.
2018-CA-784, the City filed a petition for enforcement
and injunctive relief concerning the code enforcement
order that had been entered originally in July 2013
and affirmed on appeal in December 2015 and pursuant to Section 553.83, Fla. Stat., based on violations of
the Florida Building Code. That case presently remains pending in the state circuit court.
Subsequently, on December 10, 2018, Petitioners
filed a new case for a temporary injunction in the state
court, this time against both the Florida Department
of Environmental Protection as well as the City of
Holmes Beach. Hazen et al v. City of Holmes Beach and
Florida Department of Environmental Protection et al,
Twelfth Judicial Circuit Court Case No. 2018-CA-5800.
On March 25, 2019, Petitioners filed an amended verified complaint for negligence, violation of inalienable
rights and other rights and petition for preliminary/
permanent injunctive relief and other relief; and then
a second amended complaint on September 10, 2019.
However, the second amended complaint in Case
No. 2018-CA-5800 was dismissed on December 11,
2020. This was followed by Petitioners' filing of their
third amended complaint for relief and damages on
January 29, 2021. In addition to various claims against
the City of civil rights violations, Florida constitutional

7
violations and exceeding authority, the third amended
complaint asserted three counts against Respondent
Florida Department of Environmental Protection. This
case, no. 2018-CA-5800, currently remains pending before the state circuit court.
Petitioners' Federal Court Claims
Next, on March 4, 2019, Petitioners filed their pro
se federal complaint in the U.S. District Court for the
Middle District of Florida, Tampa Division, against
the City of Holmes Beach, various City officials and
the Florida Department of Environmental Protection
(Middle District of Florida Case No. 8:19-cv-00534 at
Doc. 1). Their complaint asserted claims for violations
of civil rights, conspiracy, Fifth and 14th Amendment,
the Eighth Amendment, the First Amendment, the Supremacy Clause, the International Covenant on Civil
and Political Rights and the Universal Declaration of
Human Rights per 42 U.S.C. §§ 1983, 1985 and 1986.
Hazen et al v. City of Holmes Beach et al, Middle District of Florida Case No. 8:19-cv-00534. At that time
there were also three other cases pending in the state
courts seeking to validate the tree house.
Before any of the defendants responded to the federal complaint, Petitioners filed their amended complaint on March 4, 2019 against the City of Holmes
Beach, the Florida Department of Environmental Protection, and "the City and State Officials" (Middle District of Florida Case No. 8:19-cv-00534 at Doc. 6). The
amended complaint further identified other parties

8
defendant: the City Mayors, Chairs and Vice Chairs
of the City Commission, City Commissioners, City
Building Officials, Code Enforcement Officers and
Code Enforcement Board, and Environmental Manager (Bureau of Beaches and Coastal Systems). The
amended complaint also listed a Steve West of the
FDEP who had "halted the nearly completed treehouse
for further investigation (Middle District of Florida
Case No. 8:19-cv-00534, Doc. 6 at pp. 5-6).
The City filed a motion for a more definite statement, arguing that the amended complaint was a
"shotgun pleading" since, among other deficiencies under Weiland v. Palm Beach County Sheriff's Office, 792
F.3d 1313 (11th Cir. 2015), it failed to adequately identify the persons being sued and upon which counts or
legal theories any such person was sued. The district
court granted the motion, dismissed the amended complaint without prejudice as a "quintessential shotgun
pleading," and permitted Petitioners to file a second
amended complaint.
On May 9, 2019, Petitioners filed their second
amended complaint, which added as a party the
FDEP's "Environmental Manager" in his official capacity (Doc. 34 at p. 2). Subsequently both the City, the
FDEP and their respective officials filed motions to dismiss the second amended complaint and/or motions for
more definite statements (Docs. 36 and 40). The District Judge granted all defendants' motions, noting
that the second amended complaint "remains a shotgun pleading," which is "arguably more confusing
because it includes more causes of action and more

9
alleged facts about events that occurred many years
ago regarding [Petitioners'] treehouse" (Doc. 42 at
pp. 1-2). Moreover, the district court further pointed
out that the latest complaint "still refers to Defendants
largely in the collective so that it is unclear which act
can be attributed to which Defendant," and was also
"unclear what constitutional provisions provide the basis for the section 1983 violations." Dismissing the second amended complaint without prejudice, the district
court warned that a Third Amended Complaint would
be the Petitioners' final chance to amend (Doc. 42 at
p. 4). The court even suggested that Petitioners seek
legal advice on these matters.
Thereafter, on July 12, 2019, Petitioners filed their
third amended complaint, which ran over twenty-five
pages and 177 paragraphs (Doc. 47). The pleading
expanded Petitioners' claims to include various City
building officials as well as "other unnamed City officials," "[o]ther unnamed State Officials, in their official
or individual capacity," and Mr. James Martinello in
his official capacity as FDEP's Environmental Manager of the Bureau of Beaches and Coastal Systems,
and "[o] ther unnamed anonymous persons, in their individual capacities" (Doc. 47 at pp. 1-2).
The FDEP and the City again moved to dismiss
Petitioners' third amended complaint as a "shotgun
pleading" (Doc. 47). In their motion, FDEP and its officials asserted as grounds for dismissal with prejudice
that: the allegations are unduly vague, unclear, redundant and confusing, and so intertwined with claims
and allegations against the City of Holmes Beach, or

10
allegations that claim interplay between the City and
State agencies and officials, that the State Environmental Parties cannot frame a responsive pleading.
Moreover, Petitioners' claims against "unnamed state
officials" and "unnamed department staff" were so
non-specific and unclear so as preclude a meaningful
response to claims against those unnamed individuals,
or to determine whether those persons were acting in
their official or unofficial capacities. The uncertainty
effectively frustrates the ability to assert qualified
privileges for the benefit of those unnamed defendants
who may be claimed to be individually or personally
liable. The Second Amended Complaint is replete with
allegations intermingling acts, claims and theories
against personnel of the City of Holmes Beach and the
State Environmental Parties, so as to be too unintelligible for drafting a response. That Petitioner's use of
multiple counts that each adopt allegations of all preceding counts is replete with conclusory, vague and immaterial facts that are not obviously connected to
specific claims and/or particular parties. By intertwining "taking" claims under both the Federal Constitution and State Constitution in connection with the City
Ordinance, it is unclear whether Plaintiffs are asserting a taking, inverse condemnation or a declaratory action challenging the respective sources. That by
incorporating multiple counts and their different professed theories, the Third Amended Complaint is overbroad and inconsistent with the designated titles of
each of the Roman numeral counts. In the complaint's
conclusion, its Demand for Relief section's mere notation of a "[g]rant for money damages" is inadequate to

11
tie such demand to any particular claim, theory or
party, either named or unnamed.
Ultimately, the district court granted all respondents' motions on August 6, 2019, finding that the third
amended complaint was still a "shotgun pleading" that
"should be dismissed with prejudice because the legal
claims remain impermissibly unclear" (Doc. 51). The
district court's order went on to note that the third
amended complaint would also be subject to dismissal
based on the preclusive doctrines argued by the City.
Eleventh Circuit Appeal
Thereafter Petitioners appealed to the U.S. Court
of Appeal for the Eleventh Circuit (Doc. 56). In its
opinion dated July 17, 2020, the Eleventh Circuit affirmed the district court and held that the district
court did not abuse its discretion in dismissing the
third amended complaint because it remained a shotgun pleading as per Weiland. See: Tran v. City of
Holmes Beach et al, 817 Fed. Appx. 911 (11th Cir. 2020).
The court remarked upon the district court's admonition to Petitioners to seek legal advice before filing
their third amended complaint, and noted that Petitioners nevertheless filed it pro se. The third amended
complaint still failed to give the defendants adequate
notice of the claims against them and the grounds
upon which each claim rested, a failing which the Eleventh Circuit described as follows:
The Hazens' latest (and last) pleading does
not specify what claims they are bringing

12
against most of the named defendants. Eight
of the nine counts in the third amended complaint are labeled as against the City, against
the Department, or both. The one exception is
Count VI, which does not name a defendant at
all but instead alleges in the abstract that certain provisions of law are unconstitutional.
None of the counts specify that the claims (if
any) in them are against any of the officials
named or referred to in the 'parties' section.
The Hazens must be trying to bring some sort
of claim against those officials because they
named them as parties defendant. But they
never say what those claims are and those
parties as well as the Court are left to guess
what they might be.—Tran, 817 Fed. Appx. at
914.
The Eleventh Circuit also rejected Petitioners'
contentions that they had not been afforded a chance
to fix their mistakes and had been subjected to a
"heightened" pleading standard, remarking that Petitioners were given two chances to amend the pleading
where only one was required and that there was "nothing heightened about application of the rule against
shotgun pleading, which is based on Rule 8, Rule 10,
and our precedent" 817 Fed. Appx. at 915. The Eleventh Circuit made no reference to and contains no
holding concerning the application of any doctrines of
finality under Williamson County or otherwise.

13
Related State & Federal Actions Since 2011
The Petitioners' treehouse has been the subject of
eleven (11) distinct judicial or quasi-judicial proceedings, three (3) of which still remain pending. They are
and have been represented by established counsel in a
prominent law firm.5 Petitioners have not been denied
the ability to seek equal justice, relief, or secure their
constitutional rights. Rather, they have been held to
pleading standards developed, amended, and applied
over many years to work substantial justice for all litigants, and those standards require that all persons
being sued have adequate notice of the claims against
them and the grounds upon which each claim rests. As
Petitioners failed in three attempts to meet those
standards, the district court below correctly dismissed
their third amended complaint with prejudice, which
was properly affirmed by the Eleventh Circuit. This
case presents no criteria warranting review by certiorari.
♦

5 Petitioners are presently and have been represented in past
years by attorney David Levin and the law firm of Icard Merrill.

14
REASONS FOR DENYING THE PETITION
PETITIONERS HAVE PRESENTED NO
COMPELLING REASONS FOR GRANTING A PETITION FOR WRIT OF CERTIORARI, AS THE ELEVENTH CIRCUIT'S
SUBJECT DECISION IS NOT IN DIRECT CONFLICT WITH A DECISION
OF ANOTHER CIRCUIT COURT ON
THE SAME IMPORTANT MATTER; THE
DECISION DID NOT DECIDE AN IMPORTANT FEDERAL QUESTION CONFLICTING WITH A STATE COURT OF
LAST RESORT; NOR DID IT DEPART
FROM THE ACCEPTED AND USUAL
COURSE OF JUDICIAL PROCEEDINGS.
Supreme Court Rule 10 sets forth those considerations to be applied by this Court in selecting cases to
be reviewed by certiorari. It is a matter of judicial discretion, not of right. Only for "compelling reasons" with
a petition for certiorari be granted. Section (a) of Rule
10 identifies circumstances that may support review
by certiorari in a federal case:
A circuit court decision in conflict with another circuit court's decision on the same important matter; or,
A circuit court has decided an important federal question with another in a way conflicting with a decision of a state court of last
resort;
A circuit court has so far departed from the accepted and usual course of judicial proceedings,

15
or sanctioned such departure, calling for the
Court's supervisory power;
A decision of a state court of last resort conflicting with a decision of another state court
or U.S. Court of Appeal;
A state court or U.S. Court of Appeal has decided an important federal question in a way
conflicting with other Supreme Court decisions.
In this case, the Petitioners have not presented
any "compelling reasons" to support the grant of certiorari in this case. Nor have the Petitioners demonstrated any direct conflict of the Eleventh Circuit's
decision in the case below with other circuit court decisions. Rather, the Eleventh Circuit below had adhered to the paramount principal that defendants to a
law suit must be given adequate notice of the particular claims against them.
(a) Shotgun Pleadings have been Disfavored
and Dismissed by the Federal Courts for
Many Years.
Shotgun pleadings like the Petitioners' third
amended complaint in this case are routinely denounced in federal courts around the country. See
e.g., Vibe Micro v. Shabanets, 878 F. 3d 1291, 1295
(11th Cir. 2018). Especially in the Eleventh Circuit,
where shotgun pleadings have been condemned
"for decades." Nurse v. Sheraton Atlanta Hotel, 618
Fed. Appx. 987, 990 (11th Cir. 2015) (citing Davis v.

16
Coca-Cola Bottling Co. Consol. , 516 F.3d 955, 979
n.54 (11th Cir. 2008). Among other justifications for
rejecting shotgun pleadings, the Eleventh Circuit
has observed that "unless cases are pled clearly and
precisely, issues are not joined, discovery is not controlled, the trial court's docket becomes unmanageable, the litigants suffer, and society loses confidence
in the court's ability to administer justice." Anderson
v. District Board of Trustees, 77 F.3d 364, 367 (11th Cir.
1996).
The key characteristic of a shotgun pleading is
that it "fail[s] to one degree or another, and in one way
or another, to give the defendants adequate notice of
the claims against them and the grounds upon which
each claim rests," which renders them disfavored and
usually subject to dismissal. Casavelli v. Johanson,
2020 WL 7643170, at *13. A circuit-by-circuit or district-by-district recitation would belabor the point unnecessarily, but virtually every federal court in the
country requires that defendants be put on adequate
notice of the claims against them by prohibiting shotgun pleadings. See, Sollberger v. Wachovia Securities,
LLC, 2010 WL 2674456, *4 (W.D. Ca. June 30, 2010)
(dismissing as a shotgun pleading a nine count complaint with leave to amend only a single negligence
count because "[t]his shotgun pleading style deprives
Defendants of knowing exactly what they are accused
of doing wrong"); Ziemba v. Incipio Techs., Inc., 2014
WL 4637006, *4 (D. N.J. Sept. 16, 2014) (finding that
grouping together of direct, contributory, and induced
infringement claims into a single count "violates the

17
pleading standard and fails to provide each Defendant with adequate notice of the particular claim(s)
being asserted against them and the specific grounds
upon which such claim(s) rest"); Schachter v. Sunrise
Senior Living Mgmt., Inc., 2020 WL 1274601, at *6 (D.
Conn. Mar. 16, 2020) (relying upon the Third Circuit
Court of Appeals' decision in Atuahene v. City of Hartford, 10 F. Appx. 33, 34 (2d Cir. 2001) (emphasizing that
rules of pleading require that a defendant be given fair
notice of what the plaintiff's claim is and the ground
upon which it rests).
In addition to the need for the proper administration of justice, the scarcity of judicial resources also
justifies dismissal of actions where pleading standards
are repeatedly ignored. "Filing a lawsuit is a serious
matter, which often times results in significant consequences to the parties. And judicial resources are far
too scarce to be exploited by litigants who, after being
specifically advised about how to correct their errors
and warned that failing to do so will result in dismissal
with prejudice, continue in their recalcitrance." Nurse,
618 Fed. Appx. at 990-91 (citing Wagner v. First Horizon Pharmaceutical Corp., 464 F.3d 1273, 1279 (11th
Cir. 2006). That is precisely what occurred in this case
below. Petitioners were cautioned explicitly about the
defects in their pleading, yet failed to correct them and
herein attempt to place the onus for doing so onto the
district and circuit courts. While the Eleventh Circuit
may have issued the bulk of the existing case law on
shotgun pleadings, it is by no means alone in its rejection of them.

18
The Third Circuit also rejects the common shotgun pleading approach to complaints. For example, in
Opdycke v. Stout, 233 Fed.Appx. 125, 126 (3d Cir.,
2007), the court noted that "a 'shotgun complaint' usually creates 'a task that can be quite onerous for
courts'." Hynson v. City of Chester Legal Dep't, 864 F.2d
1026, 1031 n.13 (3d Cir. 1988) ("We enunciate the
standard for plaintiffs' prima facie case in order to
eliminate the all too common shotgun pleading approach to these equal protection claims."); see also
Wright v. City of Phila., 2005 WL 3091883, at *11 (E.D.
Pa. Nov. 17, 2005) (citing Hynson for the proposition
that "Mlle Third Circuit . . . has a policy against plaintiffs using a 'shotgun pleading approach'). The Third
Circuit has explained that requiring a plaintiff to
plead with specificity "ha[s] a twofold purpose: 1) to
weed out at an early stage frivolous claims and those
that should be heard in state court, and 2) to provide
the defendant with sufficient notice of the claims asserted." Hynson, 864 F.2d at 1031 n.13.
Likewise, the Tenth Circuit has remarked that
"Mlle law recognizes a significant difference between
notice pleading and 'shotgun' pleading." Glenn v. First
Nat'l Bank in Grand Junction, 868 F.2d 368, 371 (10th
Cir. 1989) (affirming dismissal of shotgun RICO complaint because it "failed to state a claim under any conceivable matching of allegations"); Hart v. Salois, 605
Fed.Appx. 694, 701 (10th Cir, 2015) (dismissal affirmed
where "plaintiff fail[ed] to show how district court
abused discretion in concluding his shotgun pleading
contravened Rule 8's notice pleading standard"); See

19
also: Pola v. Utah, 458 F. App'x. 760, 762 (10th Cir.
2012) (affirming the dismissal of a complaint that was
"incoherent, rambling, and include [d] everything but
the kitchen sink"); McNamara v. Brauchler, 570 F.
App'x 741, 743 (10th Cir. 2014) (allowing shotgun
pleadings to survive screening "would force the Defendants to carefully comb through [the documents] to
ascertain which . . . pertinent allegations to which a
response is warranted"). District courts in the tenth
circuit have observed that shotgun pleadings are "pernicious" because they "unfairly burden defendants and
courts" by shifting onto them "the burden of identifying
plaintiff's genuine claims and determining which of
those claims might have legal support." D.J. Young
Publishing Co., LLC v. Unified Gov't of Wyandotte
County, 2012 WL 4211669, at *3 (D. Kansas, September 18, 2012).
The Fourth Circuit agrees. "[T]he use of shotgun
pleadings in civil cases is a ubiquitous problem, making it particularly important for district courts to undertake the difficult, but essential, task of attempting
to narrow and define the issues before trial." McLean
Contracting Co. v. Waterman S.S. Corp., 277 F.3d 477,
480 (4th Cir. 2002).
Similarly, the Fifth Circuit has taken a strong position against the use of shotgun pleadings. For example, in Alexander v. Global Tel, 816 Fed.Appx. 939, 941
(5th Cir., 2020), the Fifth Circuit recently affirmed
the dismissal of claims made by a group of plaintiffinmates asserted in their fourth amended complaint, where the district court had been previously

20
"encourag[ing] the inmates 'to avoid the pitfalls of
shotgun pleadings'." As the district judge had already
given the inmates two previous opportunities to correct these deficiencies, the district court dismissed the
fourth amended complaint with prejudice. 816 Fed.Appx.
at 942. In Ducksworth v. Rook, 647 Fed.Appx. 383, 385
(5th Cir., 2016), the Fifth Circuit affirmed the dismissal of Section 1983 civil rights claims where "the complaint's 'shotgun pleadings' came close to warranting
sanctions." And in Kelly v. Huzella, 71 F.3d 878 at *4
(5th Cir., 1995), the court declined to reverse an
$11,000 sanctions award against the appellant "for
bringing a frivolous suit against [a defendant] as part
of a 'shotgun pleading' strategy."
In like manner, the Sixth Circuit in Lee v. Ohio Educational Association, 951 F.3d 386, 393 (6th Cir, 2020)
had also affirmed the dismissal of a plaintiff's seven
claims which were all contained within a single sentence, thereby failing to separate each of her causes
into separate counts. The court found that the complaint was a "shotgun pleading" violating Rule 10(b).
See also: Wilson v. 5 Choices, 776 Fed.Appx. 320, 322
(6th Cir, 2019) (Sixth Circuit affirmed district court's
denial of proposed third amended complaint where district judge had "concerns about 'shotgun pleadings' and
the failure to identify which defendant allegedly did
what.")
The Lee court also cited the Seventh Circuit case
of Cincinnati Life v. Beyrer, 722 F.3d 939, 947 (7th Cir.,
2013), where the Seventh Circuit had held that "one

21
count of complaint which raised five causes of action,
was impermissible 'kitchen sink' pleading."
Additionally, the Ninth Circuit opposed shotgun
pleadings in Destfino v. Reiswig, 630 F.3d 952, 958 (9th
Cir., 2011), where "the district court made clear in an
order that plaintiffs must amend their 'shotgun pleading' to state clearly how each and every defendant is
alleged to have violated plaintiffs' legal rights." However, the plaintiffs filed a second amended complaint
that didn't do so and was dismissed with prejudice. Accordingly, the Ninth Circuit affirmed the dismissal
with prejudice, noting that plaintiffs already had three
bites at the apple.
In this case, the district court's dismissal of Petitioners' third amended complaint conformed with the
accepted and usual course of judicial proceedings, as
did the Eleventh Circuit Court's affirmance of the dismissal. Shotgun pleadings of the kind filed by Petitioners are roundly rejected by district courts and circuit
courts because they fail to place defendants on proper
notice of the claims against them, result in uncontrolled dockets and unbridled discovery, and further
tax the already stressed resources of the federal judicial system. Review of this matter is not warranted under these circumstances.

22
(b) Dismissal with Prejudice is the Accepted
and Usual Course of Proceedings when
Pro Se Plaintiffs are Given Notice of
Pleading Defects and an Opportunity to
Correct Them, but Repeatedly Fail to
Do So.
Dismissal of the Petitioners' third amended complaint with prejudice under the circumstances that are
presented in this case conformed entirely with the accepted and usual course of judicial proceedings. Federal courts for many years have dismissed complaints
with prejudice, or affirmed such dismissal, when plaintiffs have been given reasonable opportunities to
amend their pleadings to meet the required standards, even when such plaintiffs proceed without
counsel.
In dismissing a shotgun complaint, a district court
must give the plaintiff "one chance to remedy such deficiencies." See, e.g. Vibe Micro, supra, 878 F.3d at 1295.
As the Eleventh Circuit Court noted in its opinion,
though, Petitioners here proceeded pro se and complained that the district court had not afforded them
the "extra leeway" accorded to such litigants. However,
the 11th Circuit rejected Petitioners' argument, writing that "[t]he court did give them that much leeway
and more . . . the district court did not demand that
[Petitioners], as pro se litigants, submit an artfully
drafted or flawless complaint, just one that gave fair
notice to the people the complaint mentioned about

23
who was a defendant and what the claim or claims
against them was or were." Tran v. City of Holmes
Beach, 817 Fed.Appx. at 915. The holding was in lockstep with other courts considering similar issues.
The First Circuit has held similarly in Kuehl v.
F.D.I.C., 8 F.3d 905, 908 (1st Cir.1993) (affirming dismissal with prejudice of pro se plaintiffs' amended
complaint where plaintiffs failed to follow magistrate
judge's instructions), as has the Ninth Circuit. Destfino
v. Reiswig, 630 F.3d 952, 958-959 (9th Cir. 2011) (upholding a district court dismissal with prejudice after
plaintiff repeatedly plead "shotgun pleadings" based
on pleading multiple defendants generally because
"[p]laintiffs had three bites at the apple, and the court
acted well within its discretion in disallowing a
fourth"). Likewise, the Fifth Circuit recognized that a
court may dismiss a pro se complaint with prejudice
when the plaintiff "is fully apprised of [the] complaint's
potential insufficiency and [has been] given [an] opportunity to correct any insufficiencies." See: Bazrowx v.
Scott, 136 F.3d 1053, 1054 (5th Cir. 1998).
Petitioners here were cautioned two times on the
pleadings' deficiencies and "shotgun" form. But instead
of correcting them, they essentially made them worse.
As the Eleventh Circuit noted in issuing its opinion,
the district court afforded Petitioners two opportunities to correct their complaint, "twice as many chances
as are required." 817 Fed.Appx. at 915-916. Again, the
Eleventh Circuit Court is not alone in controlling its
dockets in this fashion, and the case does not warrant

24
review under any standard articulated by this Court's
Rule 10 or otherwise.
♦

CONCLUSION
Based upon the foregoing arguments and authorities, the Respondents Florida Department of Environmental Protection, its Department Official(s) and
Environmental Manager respectfully request this
Honorable Court to DENY the Petition for Writ of Certiorari.
Respectfully submitted,
MANDELBAUM, FITZSIMMONS,
HEWITT & CAIN, P.A.
SAMUEL R. MANDELBAUM, ESQ.
Florida Bar No. 0270806
Post Office Box 3373
Tampa, FL 33601-3373
Telephone: (813) 221-0200
Email: srm@manfitzlaw.com, and
tlp@manfitzlaw.com
Counsel for Respondents
Florida Department of
Environmental Protection,
its Department Official(s)
and Environmental Manager

